U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 29, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: El Paso County v. Trump, No. 20-298
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 2,
2020, and placed on the Court’s docket on September 8, 2020. The response of the United States
is now due, after one extension, on November 9, 2020. We respectfully request, under Rule 30.4
of the Rules of this Court, a further extension of time to and including November 17, 2020,
within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of
previously assigned matters with proximate due dates.
Counsel for petitioners does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0298
EL PASO COUNTY, TX., ET AL.
DONALD J. TRUMP, PRESIDENT OF U.S., ET AL.

ANTON METLITSKY
O'MELVENY & MYERS LLP
TIMES SQUARE TOWER
7 TIMES SQUARE
NEW YORK, NY 10030
212-326-2000
AMETLITSKY@MM.COM

